   June 30, 2004




Acquisition
Acquisition and Management of
Specialized Shipping and
Unit-Owned Containers and Related
Accessories
(D-2004-093)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AIDPMO                Army Intermodal and Distribution Platform Management Office
CMCI                  Charleston Marine Containers, Incorporated
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
FAR                   Federal Acquisition Regulation
ISU                   Internal Airlift or Helicopter Slingable Unit
LSA                   Land, Sea, and Air
MCSC                  Marine Corps Systems Command
SDDC                  Surface Deployment and Distribution Command
NSN                   National Stock Number
TACOM                 Army Tank-automotive and Armaments Command
TOE                   Table of Equipment
          Office of the Inspector General of the Department of Defense
Report No. D-2004-093                                                      June 30, 2004
   (Project No. D2002CH-0158)

         Acquisition and Management of Specialized Shipping and
            Unit-Owned Containers and Related Accessories

                                Executive Summary

Who Should Read This Report and Why? DoD managers and other individuals
interested in acquisition, management, and use of specialized shipping containers for
deployment of supplies and equipment should read this report. The report discusses
acquisition and management practices selected Services use for those containers.

Background. DoD needs to supply and equip the warfighter during conflicts,
humanitarian assistance operations, or civil defense actions. Use of containers can help
minimize loss, damage, and pilferage of cargo as well as reduce in-transit times.
Although there are many types of containers, DoD generally refers to containers as
common-use and specialized shipping containers. Unit-owned containers are specialized
shipping containers that Service units manage. The most common types of unit-owned
containers are Internal Airlift or Helicopter Slingable Unit containers, Quadruple
containers, and Triple containers. The Defense Supply Center Philadelphia purchased
and supplied specialized containers for Army and Air Force units, the Army Tank-
automotive and Armaments Command acquired containers for some Army units, and the
Marine Corps Systems Command acquired containers for its units. Between July 2001
and September 2002, the Defense Supply Center Philadelphia awarded contracts totaling
$176 million for specialized shipping containers and accessories. In May 1999, the
Marine Corps awarded a $68.5 million contract for unit-owned containers. The Army
Tank-automotive and Armaments Command awarded a $10.4 million contract for unit-
owned containers in August 2001.

Results. The Army and the Air Force needed to improve controls over the acquisition
and management of specialized shipping and unit-owned containers, whereas the Marine
Corps has effectively acquired and managed its containers. The Army Tank-automotive
and Armaments Command has successfully competed and awarded contracts for the
containers, however, the Defense Supply Center Philadelphia needed to improve its
contracting procedures for the containers.

The Army and the Air Force did not effectively acquire and manage unit-owned
containers needed to meet the requirements for each unit. As a result, during an
18-month period ending March 31, 2003, Army and Air Force units spent $49.6 million
instead of $15.3 million for unit-owned containers, or 224 percent more than necessary.
Based on the management practices of the Army and the Air Force and the most recent
prices paid for unit-owned containers, we calculate that over the next 6 years the Army
and the Air Force could pay $137.4 million more than necessary for unit-owned
containers. In addition, the Army and the Air Force did not have accountability of their
respective containerization programs. By establishing controls for acquiring and
managing unit-owned containers, the Army and the Air Force would improve
management oversight and reduce overall cost for their container programs.
Implementing procedures for collecting and analyzing data and establishing procedures
for performing annual inventories would also provide accountability and effective
management of containers. (For detailed recommendations, see finding A.)

The Defense Supply Center Philadelphia issued multiple award contracts for specialized
shipping containers and accessories that circumvented both competition and the
requirement for item evaluation. As a result, between July 2001 and March 2003, the
Defense Supply Center Philadelphia awarded about $73.4 million in sole-source delivery
orders for specialized shipping containers and accessories without obtaining approval
from the Senior Procurement Executive for the Defense Logistics Agency. The Defense
Supply Center Philadelphia did not ensure that containerization needs of the Army and
the Air Force were met or that DoD funds were spent efficiently. Obtaining justifications
for other than full-and-open competition before exercising the options on the multiple
award contracts or avoiding the use of multiple award contracts in sole-source situations,
and discontinuing the use of commercial market acceptance as the criterion for item
evaluation will ensure that future contracts meet Federal acquisition requirements. (For
detailed recommendations, see finding B.)

Management Comments and Audit Response. The Army Director, Force Projection
and Distribution agreed that there is a need for more efficient oversight and management
of containers. The Army established the Army Intermodal and Distribution Platform
Management Office to provide management controls of the Army containers. The Army
is also developing policies and procedures for management, control, accountability, and
reporting of containers. The Army planned to verify the cost avoidance calculation of
$87.8 million.

The Air Force Acting Deputy Chief of Staff for Installations and Logistics agreed to
advise units of various types of containers managed by Defense Logistics Agency and to
properly account for unit-owned containers. The Acting Deputy Chief also stated that the
Air Force has decided to maintain its decentralized container program. The Air Force
also did not fully concur with the cost avoidance of $49.6 million. The Air Force
comments were partially responsive, but they were not sufficient to correct all of the
deficiencies identified in the report. We revised the recommendations to require
reasonable assurance for effective and efficient acquisition and management of the Air
Force containers. (See the Recommendations, Management Comments, and Audit
Response section of finding A.)

The Defense Logistics Agency Deputy Director, Logistics Operations stated that the
Agency has taken actions to eliminate a noncompetitive environment by awarding three
additional multiple award schedule contracts. The Defense Logistics Agency comments
were only partially responsive. Multiple award schedule contracting is not an appropriate
contracting method for procuring specialized shipping containers that are available from
sole-source vendors unless the multiple award schedule contract provides competition in
contract awards or provides a fair opportunity to compete for delivery orders. The
Defense Logistics Agency also needs to conduct market research more thoroughly to
identify and incorporate customer needs in the solicitation.

We request that the Air Force and the Defense Logistics Agency provide additional
comments on the final report by July 30, 2004.




                                            ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                3

Findings
     A. Management of Unit-Owned Containers                               4
     B. Acquisition of Specialized Shipping Containers and Accessories   18

Appendixes
     A. Scope and Methodology                                            28
         Management Control Program Review                               29
         Prior Coverage                                                  30
     B. Comparison of Unit-Owned Containers                              31
     C. Potential Cost Avoidance                                         32
     D. Report Distribution                                              33

Management Comments
     Department of the Army                                              35
     Department of the Air Force                                         38
     Defense Logistics Agency                                            41
Background
            This audit discusses the practices of selected Services for acquiring and managing
            unit-owned containers. The Marine Corps established a centralized program for
            unit-owned containers that acquired containers for units to transport and store unit
            equipment. Unlike the Marine Corps centralized program for unit-owned
            containers, the Army and the Air Force did not have centralized programs for
            unit-owned containers and placed the responsibilities for management and
            acquisition of the containers with the units.

            DoD needs to supply and equip the warfighter during conflicts, humanitarian
            assistance operations, or civil defense actions. The U.S. Transportation
            Command, who is responsible for making sure that troops get supplies and
            equipment at locations all over the world, uses containers for ease and efficiency
            in shipping and storage. Use of containers can help minimize loss, damage, and
            pilferage of cargo as well as reduce in-transit times. Although there are many
            types of containers, DoD generally refers to containers as common-use and
            specialized shipping containers.

            Common-use Containers. Common-use containers are DoD-owned, leased, or
            controlled 20- or 40-foot containers that are used to support transportation
            requirements of the Services. The U.S. Transportation Command, through the
            Surface Deployment and Distribution Command (SDDC), formerly Military
            Traffic Management Command, manages and controls common-use containers.

            Specialized or Unit-Owned Containers. Specialized containers include unit-
            owned containers that the Military Services and their respective units procure and
            own. The most commonly used unit-owned containers are Internal Airlift or
            Helicopter Slingable Unit (ISU) containers, Quadruple containers (Quadcon), and
            Triple containers (Tricon). (Appendix B shows a comparison of the costs,
            dimensions, and capabilities of three types of unit-owned containers.)

            AAR Mobility Systems, formerly AAR Cadillac Manufacturing, manufactures
            and sells ISU containers in various sizes, shapes, and configurations. ISU
            containers are lightweight containers constructed of balsa wood1 with an
            aluminum coating (see the following picture).




1
    Balsa wood is the material used to construct model airplanes.



                                                        1
                                                       ISU Container


            Charleston Marine Containers, Incorporated (CMCI), manufactures and sells
            Quadcons and Tricons in standardized sizes and shapes. Quadcons and Tricons
            are durable steel containers (see pictures below). In addition, CMCI designed the
            Land, Sea, and Air (LSA) adapter2 for Quadcons and Tricons as an alternative to
            the use of 463L pallets3 and chains during air transport.




                                 Quadcon                                                    Tricon

            Units in the Army, the Air Force, and the Marine Corps use unit-owned
            containers to support rapid deployment and logistical requirements. Unit-owned
            containers have become critical in transporting warfighter equipment. Army and
            Air Force units individually acquire their unit-owned containers through the
            Defense Supply Center Philadelphia (DSCP). The Army Tank-automotive and
2
    The LSA adapter is a set of small, lightweight expandable steel legs that attach to the bottom of Quadcons.
     The adapter provides a rolling surface that works with military aircraft cargo systems.
3
    The 463L pallet is an aluminum flat base that facilitates the loading and off-loading of aircrafts. The 463L
     pallet is the method of shipment the Air Force authorizes for air deployments.



                                                        2
    Armaments Command (TACOM) purchases unit-owned containers for some
    Army units, and the Marine Corps Systems Command (MCSC) purchases unit-
    owned containers for Marine Corps units.

    Defense Supply Center Philadelphia. DSCP, a Defense Logistics Agency
    (DLA) field organization, provides supply support, contract management services,
    and technical and logistics services for DoD. Between July 2001 and
    September 2002, DSCP awarded four contracts that totaled $176 million for
    specialized shipping containers and accessories. DSCP ensures assignment of
    National Stock Numbers (NSN) for each container and accessory. Each NSN has
    a unique 13-digit identification number.

    Army Tank-automotive and Armaments Command. TACOM provides
    ground combat, automotive, marine, and armaments technologies and systems for
    the Army and other Services. Specifically, TACOM awarded a contract in
    August 2001 totaling $10.4 million for unit-owned containers.

    Marine Corps Systems Command. MCSC equips the Marine Corps with the
    means needed to accomplish their warfighting mission. Specifically, MCSC
    awarded a contract in May 1999 totaling $68.5 million for unit-owned containers.


Objectives
    Our overall audit objective was to determine whether DoD is paying fair and
    reasonable prices for sole-source specialized shipping containers and related
    accessories. We also evaluated DoD management and management controls of
    unit-owned containers and related accessories. See Appendix A for a discussion
    of the audit scope, methodology, management control program, and prior
    coverage.




                                        3
           A. Management of Unit-Owned
              Containers
           The Marine Corps effectively acquired and managed unit-owned
           containers. However, the Army and the Air Force did not effectively
           acquire and manage unit-owned containers needed to meet the
           requirements for each unit. Army and Air Force management of unit-
           owned containers was ineffective.

              •   The Army did not have a centralized program for unit-owned
                  containers designed to acquire and manage those containers that
                  meet the requirements for each Army unit. Specifically, the Army
                  neither implemented the SDDC-recommended use of Quadruple
                  containers to satisfy basic unit deployment requirements nor
                  collected and analyzed data on the effectiveness of containers
                  Army units used for deployments and storage.

              •   The Air Force did not have a centralized program or controls for
                  unit-owned containers designed to acquire and manage those
                  containers that meet the requirements for each Air Force unit.
                  Specifically, the Air Force neither identified the type and amount
                  of unit-owned containers needed that would meet unit
                  requirements nor collected and analyzed data on the effectiveness
                  of containers Air Force units used for deployments and storage.

              •   The Army and the Air Force did not report unit-owned containers
                  on property records or conduct inventories of those containers.

           As a result, during an 18-month period ending March 31, 2003, Army and
           Air Force units spent $49.6 million on accessorized ISU containers instead
           of $15.3 million for unit-owned containers and accessories, or 224 percent
           more than necessary. In addition, the Army and the Air Force did not
           have adequate accountability of unit-owned containers and DoD could not
           determine the impact of the containers on either containerization and
           transportation programs. Based on the most recent prices paid for unit-
           owned containers, we calculate that over the next 6 years the Army and
           the Air Force could avoid costs of $137.4 million for unit-owned
           containers by improving management practices.


Management of Unit-Owned Containers
    The Army and the Air Force did not effectively acquire and manage unit-owned
    containers needed to meet unit container requirements. The Army and the Air
    Force assigned the responsibilities for acquisition and management of unit-owned
    containers to the individual units. Army and Air Force units purchased and used
    unit-owned containers, such as ISU containers, Quadcons, and Tricons, to move
    equipment and cargo. However, ISU containers cost more than both the
    Quadcons and the Tricons— $8,000 and $7,000, respectively— are less durable,


                                        4
    and require additional resources for sea and rail transport. When moved by sea or
    rail, ISU containers either require the use of a commercial 20-foot container that
    is certified for sea or rail transport, or must be enclosed in other types of
    commercial shipping equipment.

    Marine Corps Management of Unit-Owned Containers. The Marine Corps
    used a centralized program for unit-owned containers that was designed to
    provide the level of support required for acquiring and managing those containers.
    Specifically, a centralized program aided the Marine Corps in defining the
    Quadcon as its required unit-owned container and established unit allowances for
    Quadcons within the Marine Corps Table of Equipment (TOE). Marine Corps
    units also retained responsibility for control and maintenance of the unit-owned
    containers. A centralized program for unit-owned containers allowed the Marine
    Corps to both identify and quantify unit-owned container requirements as well as
    oversee the impact of its unit-owned container assets on DoD containerization
    and transportation programs.


Army Management of Unit-Owned Containers
    The Army did not have a centralized program for unit-owned containers that was
    designed to acquire and manage those containers that meet the requirements for
    each Army unit similar to the program used by the Marine Corps. Specifically,
    the Army neither implemented the SDDC recommendation for using Quadcons
    for meeting basic unit deployment requirements nor established allowances for
    unit-owned containers on Army TOEs. In addition, the Army did not collect or
    analyze any data on the effectiveness of unit-owned containers that Army units
    used for deployments and storage. As a result, DoD and Army management
    could not determine the impact of unit-owned containers on DoD containerization
    and transportation programs.

    SDDC-Recommended Unit-Owned Container Requirements. The Army did
    not implement the SDDC recommendation for using Quadcons to meet unit
    deployment requirements. Instead, the Army gave individual units the
    responsibility of determining their own requirements for unit-owned containers.
    Following Operations Desert Storm and Desert Shield, the Army identified
    problems with its units determining their own requirements for unit-owned
    containers. For example, each time the leadership of a unit changed, container
    requirements for the unit would likely change.

    In the 1990s, both Army Forces Command and SDDC performed studies to assist
    units in determining and reducing container requirements. The U.S.
    Transportation Command sponsored study, “Turbo Intermodal Surge 95,”
    March 1996, evaluated the effectiveness of Quadcons for unit deployments and
    recommends that “the Army expand its procurement of Quadcons for TOE units.”
    In a 1998 memorandum, the Army’s Deputy Chief of Staff for Logistics states,
    “the Quadcon is the container selected by the Army to replace the proliferation of
    current nonstandard containers and fabricated storage aids throughout the force.”




                                        5
Based on the SDDC Transportation Engineering Activity Pamphlet 700-5, “A
Deployment Planning Guide,” May 2001, we calculated that deploying Army
units needed about 109,000 Quadcons to meet their basic requirements for
containerization. However, in an 18-month period ending March 31, 2003, the
Army spent about $31 million acquiring ISU containers and container accessories
instead of about $9 million acquiring Quadcons, or about $22 million more than
necessary. The $31 million that the Army spent on ISU containers and container
accessories represents 56 percent of the ISU containers purchased throughout the
Services and other DoD Components along with Federal agencies (see Figure
below).



                                Marine     Other
                                 2%         2%
                     Navy
                      6%




                                                              Army
             Air Force
                                                              56%
               34%




Percentage of ISU Containers and Container Accessories Purchased From
October 2002 to March 2003

The Army should use the SDDC recommendation as a basis for establishing
Army unit TOE allowances for unit-owned containers and adjust the allowances
when necessary.

Unit-Owned Containers for Air Deployment. The Army did not collect or
analyze data on the effectiveness of unit-owned containers used for unit
deployments and storage. For example, the Army did not identify the need to
modify the design of Quadcons for air deployments or collect data on the
durability and the functional uses of unit-owned containers. Of the 18 Army units
reviewed, 17 used ISU containers instead of Quadcons because of the airlift
capabilities of ISU containers. In addition, Army Forces Command
Regulation 55-1, “Transportation and Travel Unit Movement Planning,”
March 1, 2000, Appendix L recommends ISU containers for air deployments and
Quadcons for land and sea deployments.


                                    6
        Development of the LSA Adapter. The Army did not identify the need
for modifying the design of Quadcons to interface with military aircraft cargo
systems. In addition, Army units were not aware of the availability of the LSA
adapter. CMCI stated that it began developing the LSA adapter after finding out
that Army personnel had difficulty using Quadcons for air deployments during
Operation Enduring Freedom. For air deployments, Army units stated that
Quadcon use was costly, labor intensive, and inconvenient because Quadcons
required 463L pallets and tie-down chains. A Quadcon deployed using a 463L
pallet and tie-down chains costs about $2,300, plus the cost of the time to secure
containers to the 463L pallet. The picture below shows a Quadcon secured on a
463L pallet.




                       Quadcon chained to 463L pallet



                       Quadcon secured on a 463L pallet

        LSA Adapter Benefits. A Quadcon deployed using the LSA adapter
instead of 463L pallets and tie-down chains provides a cost savings of about
$1,500 per unit as well as a reduction in time to load the container on an aircraft.
Quadcons using LSA adapters for air deployments cost less than ISU containers.
Although the LSA adapter provides a cost savings to the Army and the Air Force,
CMCI stated that it developed and tested the LSA adapter without significant help
from the Army or the Air Force. The Air Force approved the LSA adapter in
November 2002 after reviewing test reports from a foreign government.
However, Army units at Fort Bragg, North Carolina, contacted in May 2003 were
not aware that the LSA adapter was available for use with the Quadcons for air
deployments.

        Durability of and Uses for Unit-Owned Containers. The Army did not
collect data on either the durability of or functional uses for containers that could
be used to assess the cost effectiveness of the unit-owned container program.
Although ISU containers cost about $8,000 more than Quadcons, ISU containers
are not as durable as the Quadcons and present significant impediments to
efficient transport over sea and rail. While ISU containers are made of
lightweight aluminum and balsa wood to facilitate air shipment, Quadcons are
made of steel.




                                      7
        Army units stated that they need durable unit-owned containers because
they use the containers daily in either the field or in combat areas. Army units
also frequently move their unit-owned containers from one location to another.
Furthermore, Army units stated that ISU containers used in the field tend to
damage easily. Containers in the field require placement on a smooth surface or
on wooden blocks referred to as dunnage. Placing the containers on blocks
prevents damage to the bottom of the container. Units also stated that a forklift
could easily penetrate the exterior of ISU containers, which can expose the balsa
wood lining. If exposed to moisture, the balsa lining can expand and become
damaged.

        The picture below shows an ISU container less than 1 year old that Air
Force loadmasters rejected for air deployment because of the separating seams on
the bottom of the container. Air Force loadmasters also rejected ISU containers
with damages, such as holes, on any exterior surface of the containers.




    Separating
    seam on
    bottom of
    container




                           Bottom of Damaged ISU Container

       Despite concerns about the durability of ISU containers, Army units did
not maintain either records of repairs or information on the replacement rate of
damaged ISU containers.

       Although the Quadcon containers are more durable and cost less than ISU
containers, Army units continued using the ISU containers for storage or surface
movement. For example, in an 18-month period ending March 2003, Army units
in Korea spent approximately $0.7 million on 82 ISU containers. We did not visit
Army units in Korea, but we conclude that units in Korea use ISU containers for
storage or surface movement instead of air deployments because few, if any, air
deployments take place from Korea.

The Army needs to establish a centralized program for unit-owned containers that
is similar to the program used by the Marine Corps that would:

   •   use the SDDC recommendation as a basis for establishing allowances for
       unit-owned containers on unit TOEs, and




                                     8
                •   collect and analyze data about containers that could determine the
                    effectiveness of unit-owned containers in satisfying unit requirements.

           The centralized program for unit-owned containers should have procedures to
           collect data on the durability of and functional uses for containers and to assess
           the cost effectiveness of containers Army units use for deployments and storage.


Air Force Management of Unit-Owned Containers
           The Air Force did not have a centralized program for unit-owned containers that
           was similar to the program used by the Marine Corps and that was designed to
           acquire and manage those containers in a way that meets the requirements for
           each Air Force unit. The Air Force neither identified the type or the quantity of
           unit-owned containers needed for meeting its unit requirements nor specified
           quantity allowances for unit-owned containers on Air Force TOEs. In addition,
           the Air Force did not collect and analyze any data on the effectiveness of unit-
           owned containers that Air Force units used. More importantly, Air Force
           management could not determine the impact on DoD containerization and
           transportation programs.

           Air Force Unit-Owned Container Requirements. The Air Force neither
           identified nor developed cost-effective unit-owned containers that met user needs.
           From October 2001 to March 2003, Air Force units spent about $18.6 million for
           ISU containers they purchased through DSCP instead of about $6.2 million for
           Quadcons, or about $12.4 million more than necessary. Although the Air Force
           did not have a centralized program that identified and managed unit-owned
           container requirements, of the 35 Air Force units reviewed 34 used ISU
           containers and preferred ISU containers to the 463L pallets. In addition, none of
           the 35 units reviewed were aware of Quadcons or Tricons.

           Air Force units contended that a need for containerization of cargo exists,
           particularly for support and maintenance units that use the containers to store
           repair parts, tools, and other equipment. Air Force units also stated that for
           deployment, the ISU containers are more suitable than the 463L pallets because
           containers provide better security and protection from environmental elements.
           Containers also make packing and unpacking equipment easier. Based on the
           reasons given for using ISU containers, the Quadcon and the Tricon with an LSA
           adapter also meet the Air Force need for deployable unit-owned containers.

           Air Force Bare Base Program. The Air Force did not collect or analyze data on
           the effectiveness of containers that Air Force units used for deployments and
           storage. For example, the Air Force did not satisfy unit-owned container
           requirements for bare base4 programs using the most cost-effective method.
           Harvest Eagle is an Air Force bare base program that sets bases up to support
           military personnel with necessities such as billeting, kitchens, showers, and

4
    Bare base is essentially a “base in a box,” which contains everything that is needed to set up an air base
    (from scratch) to support a specified number of personnel. A “base in a box” does not include
    consumable supplies.



                                                        9
    latrines. One Harvest Eagle set supports 550 personnel and requires 13,965 cubic
    feet of cargo space, or 35 ISU containers, at a total cost of about $340,000.

    If the Air Force were to identify and analyze data on unit-owned container
    requirements similar to the process used by the Marine Corps, and acquire
    Tricons instead of ISU containers, we calculate that the Air Force would save
    about $222,000 for each Harvest Eagle set of unit-owned containers.

    The Air Force needs to establish a centralized program for unit-owned containers
    similar to that of the Marine Corps, which has demonstrated effective
    management of unit-owned containers or establish controls over its existing
    container program. The controls should ensure that units make best value
    determination on container acquisition; facilitate transfer of idle and excess
    containers to potential users; collect data on the durability and functional usage of
    unit-owned containers; assess the effectiveness of unit-owned containers for
    deployment or storage requirements; and coordinate with item managers to
    acquire the most effective containers based on the defined requirements.


Accountability of Unit-Owned Containers
    The Army and the Air Force did not report unit-owned containers on property
    records or conduct inventories of those containers. That lack of accountability
    occurred primarily because the Army and the Air Force did not have a centralized
    program that would either account for unit-owned containers or perform annual
    inventories similar to those the Marine Corps performs. In addition, ISU
    containers did not have proper accounting codes, and the Army and the Air Force
    did not comply with DoD Instruction 5000.64, “Defense Property
    Accountability,” August 13, 2002. As a result, the Army and the Air Force did
    not have oversight of the quantity of unit-owned containers that were on-hand, the
    readiness conditions of the containers, or the percentage of unit-owned containers
    used to containerize unit equipment. The Army and the Air Force could also not
    determine the impact of the use of unit-owned containers on DoD containerization
    and transportation programs.

    Marine Corps Unit-Owned Container Accountability. The Marine Corps
    accounts for unit-owned containers at the major command level. Specifically,
    MCSC obtained serial numbers from SDDC for each Quadcon and provided
    delivery orders to an inventory manager. The inventory manager maintained a
    database of serialized unit-owned containers, updated the database for each
    delivery order received from MCSC, and performed an annual inventory. When
    conducting annual inventories, the inventory manager compared the quantity of
    unit-owned containers reported as on hand to the total quantity of unit-owned
    containers received based on delivery orders plus the quantity of unit-owned
    containers reported as on hand from the previous year. The Marine Corps used
    counts from each annual inventory to establish allowances that could identify a
    shortage or an excess of unit-owned containers within Marine Corps commands.
    The process that the Marine Corps used provided the Marine Corps with visibility
    of both the quantity and the use of unit-owned containers.



                                         10
    Army and Air Force Unit-Owned Container Accountability. The Army and
    the Air Force did not account for unit-owned containers. The Army identified
    container accountability problems in the early 1990s and initiated steps that
    would improve accountability. Our review in 2003 revealed, however, that both
    Army and Air Force accountability problems of unit-owned containers remain
    unresolved.

    The Army and the Air Force both assigned procurement and accounting
    responsibilities for unit-owned containers to Army and Air Force units. Army
    and Air Force units purchased containers through DSCP. The Army and the Air
    Force did not obtain serial numbers for ISU containers from SDDC, which would
    have facilitated accountability, because ISU containers do not have the
    International Organization for Standardization certification and do not require
    serial numbers.

    The Army and the Air Force did not have a centralized program for maintaining
    an inventory database for unit-owned containers. In addition, the Army and the
    Air Force did not account for ISU containers on property book records because
    the expendable property accounting code assigned to ISU containers was
    incorrect. As a result, 16 of 18 Army units and 31 of 35 Air Force units that we
    reviewed did not account for unit-owned containers on records in accordance with
    applicable DoD regulations.

    DoD Guidance. The Army and the Air Force did not comply with DoD
    Instruction 5000.64 when accounting for ISU containers. DoD
    Instruction 5000.64 requires that property records for property with an acquisition
    cost of $5,000 or more are established. The Army did not comply with DoD
    Instruction 5000.64 because the Army did not implement that instruction in its
    policies and procedures for property accountability. The Air Force policies and
    procedures for property accountability were ambiguous because the policies did
    not specify that Air Force units should report any property that costs more than
    $2,500 or nonexpendable property that costs more than $2,500. As a result, Army
    and Air Force units did not establish or maintain property records for ISU
    containers which cost more than $5,000. The Army and the Air Force also did
    not have a basis for determining the quantity and conditions of unit-owned
    containers that were either on-hand or in use. Not being able to determine the
    quantity and conditions of unit-owned containers either on-hand or in-use is an
    impediment to effective asset management of unit-owned containers in terms of
    procurement, utilization, transfer, and deployment planning.

    The Army and the Air Force should establish a centralized program or controls
    that ensure that their units account for unit-owned containers on property records.


Ongoing Army Actions
    For obtaining proper management of Army intermodal assets, the Army
    established on June 3, 2003, the Army Intermodal and Distribution Platform
    Management Office (AIDPMO). AIDPMO is the Army’s single manager for
    Army-owned International Organization for Standardization containers.


                                        11
    AIDPMO manages inventory accountability and readiness conditions for all of
    the Army-owned International Organization for Standardization containers.
    AIDPMO is working with procurement organizations to define and establish
    procedures for container purchases, accountability, and inventory requirements.
    However, the management responsibilities for AIDPMO do not include unit-
    owned containers. AIDPMO expects that in the future they will address
    management of unit-owned containers. Army is also in the process of
    incorporating DoD Instruction 5000.64 guidelines into existing guidance and
    reducing to $2,500 the threshold for property accountability.


Conclusion
    The Army and the Air Force should adopt the concept of a centralized program
    for unit-owned containers that is similar to the program used by the Marine Corps
    and that identifies acquisition requirements for unit-owned containers, distributes
    the containers to unit, and maintains property records of the unit-owned
    containers. Although the centralized program should involve procurement and
    distribution functions, the units should be responsible for accountability and day-
    to-day management. A centralized program similar to the program used by the
    Marine Corps for unit-owned containers would ensure that units have the
    containers they need to meet mission requirements; that units are restricted from
    procuring containers beyond their mission requirements; and that units regularly
    inventory their unit-owned containers and report on any losses, damages, or
    dispositions. A centralized program would also aid senior officials in making
    decisions about the acquisition of containers.

    If the Army and the Air Force do not adopt a centralized program for unit-owned
    containers similar to the program used by the Marine Corps, controls need to be
    established to improve their units existing methods of acquiring, managing and
    accounting for unit-owned containers. The controls should include procedures
    and techniques that identify, collect, and analyze data on the durability and
    functional uses of unit-owned containers, which is needed to develop cost-
    effective containers that meet the user needs. The controls also should provide
    management oversight of unit-owned containers to ensure proper accountability
    and effective use of unit-owned containers.

    By establishing a centralized program or controls for unit-owned containers, the
    Army and the Air Force would reduce, by about $137.4 million, the overall cost
    for the unit-owned containers as well as improve management oversight.
    Specifically, if the Army and the Air Force purchased Quadcons instead of ISU
    containers, we calculate a cost savings of about $87.8 million to the Army and
    about $49.6 million to the Air Force over the next 6 years. See Appendix C for
    the calculation of the Army and the Air Force potential cost savings.




                                        12
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we revised
    draft Recommendations A.2.a. and A.2.c. to address the need for the Air Force to
    incorporate effective controls into the decentralized container program.

    A.1. We recommend that the Army Deputy Chief of Staff for Logistics:

               a. Establish a centralized program similar to the Marine Corps
    for acquiring and managing unit-owned containers.

    Management Comments. The Director, Force Projection and Distribution
    concurred in principle that the Army needs to strengthen its oversight and controls
    over acquisition and management of containers. To provide management control
    for the Army containers, the Army established the AIDPMO in June 2003. The
    Army G-4 is currently collaborating with the AIDPMO and major commands and
    will, within the next 24 months, determine management procedures for unit-
    owned containers. The AIDPMO will also review resource requirements
    associated with the centralized management and control of the ISU containers.

               b. Use as a basis for establishing allowances for Army units the
    quadruple container requirements that the Surface Deployment and
    Distribution Command recommends.

    Management Comments. The Director, Force Projection and Distribution
    nonconcurred and stated that the Army G-4 makes policy and recommendations
    to the major commands and does not direct to the units the container requirements
    or types because units are built by force structure. The major commands control
    the container requirement allowances of their units. The Army G-4 is reviewing
    the recommendation made by the Surface Deployment and Distribution
    Command and the use of Quadcons and Tricons at unit levels.

    Audit Response. The Army comments are responsive. Although the Army did
    not concur, we consider that the actions taken by the Army G-4 satisfy the intent
    of the recommendation to reinforce controls in establishing container requirement
    allowances.

              c. Establish and implement procedures for collecting and
    analyzing data that will determine the effectiveness of containers used in the
    Army’s centralized program for unit-owned containers.

    Management Comments. The Director, Force Projection and Distribution
    concurred and stated that the AIDPMO will review and establish implementing
    procedures for inventorying, collecting, and analyzing data to determine the
    requirements and effectiveness of the containers used by Army units. Policies
    and procedures for management, control, accountability, and reporting of assets
    are being developed and will be published in the revised Army Regulations 56-4
    and 735.5. Projected completion date is December 30, 2004.



                                        13
          d. Establish procedures requiring that the Army conduct annual
inventories of unit-owned containers as well as properly account for unit-
owned containers on property records.

Management Comments. The Director, Force Projection and Distribution
nonconcurred, stating that all unit-owned containers will be inventoried every
2 years in accordance with Army Regulation 735.5. The Army is in the process
of reviewing and developing policy and procedures to incorporate guidance on
property accountability that will reduce the threshold to $2,500. The directives
will be issued by September 30, 2004.

Audit Response. The Army comments are responsive. Although the Army did
not concur, we consider that the Army comments meet the intent of the
recommendation. We agree that the revised guidance, coupled with biennial
inventory, will ensure that all of the Army unit-owned containers are accounted
for on property records.

A.2. We recommend that the Air Force Deputy Chief of Staff for
Installations and Logistics:

            a. Establish controls over the container program to ensure that
units make best value determination on container procurements, document
the justification of container selection, and facilitate transfer of idle and
excess containers to potential users.

Management Comments. The Acting Deputy Chief of Staff for Installations and
Logistics nonconcurred and stated that the Air Force will continue to manage
shipping containers at the unit level. Units are in the best position to plan,
program, and budget their requirements, and the Air Force has policies and
procedures in place for units to requisition containers directly from DLA using
Operation and Maintenance funds. The Air Force transitioned from a centralized
management program for shipping containers to a decentralized program in the
late 1990s.

Audit Response. We consider the Air Force comments only partially responsive.
The Acting Deputy Chief of Staff for Installations and Logistics stated that the
Air Force will maintain the decentralized container program without addressing
the deficiencies we identified in the Air Force unit-owned container program as
follows:

The Air Force container program did not provide for units to make best value
determination on container procurements. Air Force units were not aware of
other containers comparable but less expensive than ISU containers. This
resulted in purchases of several hundred ISU containers for Bare Base Programs
at an Air Force Base though the needs could have been satisfied by purchasing
Quadcons or Tricons at less cost. Also, Air Force units were basing selection of
their containers merely on word of mouth, to the extent that units engaging mostly
in surface or sea transport were procuring containers designed for air-movement
and paying for unnecessary capabilities such as helicopter slingability. We also
identified that the Air Force needs to identify excess or idle containers and
identify potential users for those containers.


                                    14
Our initial recommendation for resolving the deficiencies was to have the Air
Force benchmark the Marine Corps centralized container program that has
demonstrated a cost-effective container program. The Air Force did not consider
a centralized container program as an option because of a previous centralized
program experience. Although Air Force reasoning for a decentralized container
program seems valid, the Air Force still needs to seek a way of minimizing, if not
eliminating, the identified deficiencies while sustaining its existing program. We
request that the Air Force provide comments on the revised recommendation.

         b. Identify the type of unit-owned containers that meet unit
requirements.

Management Comments. The Acting Deputy Chief of Staff for Installations and
Logistics concurred and stated that Air Force units fully understand their shipping
container requirements as they pertain to their operational mission plans. To
ensure units are aware of other various types of shipping containers, the Air Staff
will advise major commands of the availability of other less expensive shipping
containers managed by the DLA.

Audit Response. The Air Force comments are partially responsive. The Air
Force solution will provide for units to select the best value container in light of
their mission needs among readily available containers in the market. However,
Air Force units cannot use commercial containers for air deployments unless the
containers are certified for use on the Air Force cargo plane in accordance with
Air Force Regulation 80-18, “Research and Development, DoD Engineering for
Transportability.” The Air Force technical experts need to test special
requirements identified in the regulation and coordinate with requiring, procuring,
and contracting activities on the procurement of containers that will satisfy the
special requirements. We request that the Air Force provide additional comments
on the recommendation.

           c. Establish controls that ensure Air Force units collect data on
the durability and functional usage of unit-owned containers, assess the
effectiveness of the containers, and coordinate with item managers to acquire
most effective containers based on deployment or storage requirements.

Management Comments. The Acting Deputy Chief of Staff for Installations and
Logistics nonconcurred indicating that the Air Force maintains a decentralized
container program. The Air Force had procedures in place to facilitate
coordination between Air Force units and DLA on issues regarding product
effectiveness, and the DSCP, as the managing office, has the resources to collect
and analyze data on product effectiveness.

Audit Response. The Air Force comments are partially responsive. The stated
procedures are not operating as intended by the Air Force. Air Force units we
visited did not report data on repairs or replacement rates of ISU containers
although units had concerns and issues regarding durability or functionality of the
containers. However, based on Air Force management comments, we revised our
recommendation to ensure that Air Force units assess the effectiveness of unit-
owned containers and coordinate with item managers to acquire most effective



                                     15
    containers based on deployment or storage requirements. We request that the Air
    Force provide comments on the revised recommendation.

              d. Establish procedures requiring that the Air Force conduct
    annual inventories of unit-owned containers as well as properly account for
    unit-owned containers on property records.

    Management Comments. The Acting Deputy Chief of Staff for Installations and
    Logistics concurred and stated that the Air Staff will advise units to account for
    ISU containers within the Air Force Equipment Management System in
    accordance with DoD Regulations. Furthermore, there are existing procedures
    that address the need for an inventory of containers.


Management Comments on the Potential Cost Avoidance
    Army Comments. The Director, Force Projection and Distribution commented
    that the Army is unable to predict the quantity of containers that will be purchased
    in the future; however, the potential cost avoidance could be in the millions over
    the next 6 years, based on the quantity of containers purchased in an 18-month
    period. The AIDPMO will verify the cost avoidance calculation with the Army
    Cost and Economic Analysis Center.

    Air Force Comments. The Acting Deputy Chief of Staff for Installations and
    Logistics stated that the base line for quantities ordered over the 18-month period
    was exceptionally high due to the surge in war planning requirements, and is not
    the anticipated amount of requirements over the next 6 years. The Air Force
    Deputy Chief of Staff for Installations and Logistics also stated that the formula
    used for calculation equates to a one-for-one replacement of the ISU container
    with the Quadcon container, and our calculation did not take into consideration
    such factors as tare weight, load capacity, off- and on-load maneuverability,
    payloads, delivery times, and shipping means. The Air Force stated that cost
    savings would be about $4.9 million over the next 6 years, as opposed to
    $49.6 million we calculated.

    Audit Response. We do not agree with the Air Force Acting Deputy Chief of
    Staff for Installations and Logistics that the cost avoidance of $49.6 million did
    not consider the issues that the Air Force mentioned above. The containers
    purchased during the 18-month period represent recent container purchases and
    the best available information to establish base line quantities. If the Air Force
    continues to purchase at the same rate, then the potential cost avoidance would be
    about $49.6 million.

    Also, the formula we used for calculation did not equate to a one-for-one
    replacement of ISU containers with Quadcons. Instead, the formula equated to
    almost two Quadcons per ISU container, resulting from comparison of the cubic
    feet of the two containers. We used the cubic feet as a calculation basis because
    Air Force loadmasters at Pope Air Force Base stated that units generally
    maximize the space before maximizing the weight. We also factored tare weight,
    load capacity, off- and on-load maneuverability, payloads, delivery times, and


                                        16
shipping means in recommending Quadcons or Tricons in place of ISU
containers. Both Quadcons and Tricons had acceptable off- and on-load
capabilities and were intermodal containers designed for air, surface, and sealifts.
Therefore, Quadcons and Tricons are cost-effective replacements or substitutes
for ISU containers.

We were informed that the Air Force has a potential 3-year requirement for about
6,000 containers and has requisitioned 21 Tricons against the TACOM contract.
If the Air Force satisfies the requirement with Tricons, this requirement alone will
save the Air Force about $33.9 million over the 3-year period, and, accordingly,
potential savings for a 6-year period could be as much as $67.8 million, as
opposed to $4.9 million that the Air Force calculated. We request that the Air
Force reconsider its position on the potential cost avoidance.




                                     17
           B. Acquisition of Specialized Shipping
              Containers and Accessories
           MCSC and TACOM have successfully competed and awarded contracts
           for their specialized shipping containers. However, DSCP issued multiple
           award contracts for specialized shipping containers and accessories that
           circumvented both competition and the requirement for item evaluation.
           The condition occurred because DSCP restricted awards to contractors
           with unique product lines when awarding contracts with estimated 5-year
           values of about $176 million. In addition, DSCP incorrectly used the
           availability of an item in the commercial market as the criterion for
           evaluating whether specialized shipping containers and accessories would
           meet the needs of both the Army and the Air Force. As a result, DSCP
           awarded between July 2001 and March 2003 about $73.4 million in sole-
           source delivery orders for specialized shipping containers and accessories
           without obtaining approval from the Senior Procurement Executive for the
           Defense Logistics Agency. DSCP did not ensure that containerization
           needs of the Army and the Air Force were met or that DoD funds were
           spent as efficiently as MCSC and TACOM funds.


Issuing Multiple Awards
    DSCP circumvented both competition and the requirement for item evaluation
    between July 2001 and September 2002 when they issued four multiple award
    contracts for specialized shipping containers. DSCP awarded the four contracts
    for entire commercial catalogs without competition based on commercial item
    descriptions. DSCP awarded four 2-year contracts each with three 1-year options
    for about $176 million and referred to the contracts as “Customer Value
    Contracts.” DSCP awarded the first contract to AAR Mobility Systems in
    July 2001 but did not award the second contract to CMCI until 6 months later in
    January 2002. DSCP awarded in February 2002 and September 2002,
    respectively, the final two contracts to Wel-Fab, Incorporated, and Boh
    Environmental, LLC. The following table identifies award amounts and delivery
    order values for each of the four contracts.




                                       18
                       Estimated Contract Values and Delivery Order Values
                                           (in millions)

                                                  Estimated                  Delivery Order Values
                                                Contract Values                                FY 2003
          Contractor            Award Date         (5 year)       FY 2001   FY 2002    (October through March)

AAR Mobility Systems           July 2, 2001          $135.0        $12.1     $34.5              $16.9
CMCI                           Jan. 16, 2002           20.0          -         1.11               1.5
Wel-Fab, Incorporated          Feb. 26, 2002            5.0          -          .42                .5
Boh Environmental, LLC         Sept. 5, 2002           16.0          -         3.3                3.1
 Totals                                              $176.0        $12.1     $39.3              $22.0
1
    DSCP did not issue a delivery order until March 2002.
2
    DSCP did not issue a delivery order until April 2002.


Restricting Competition in Multiple Award Acquisitions
           DSCP improperly issued multiple award contracts to contractors who had a
           unique product line. DSCP awarded four sole-source contracts without
           competition using multiple award procedures and did not seek competition for
           subsequent delivery orders because each contractor’s unique product lines was
           assigned a different NSN. Based on the Federal Acquisition Regulation (FAR),
           DSCP must obtain approval to award sole-source contracts and should not use
           multiple awards in situations that will result in sole-source delivery orders.
           MCSC and TACOM successfully competed awards for specialized shipping
           containers by comparing contractor proposals during the source selection process.

           Creating a Sole-Source Situation. Although customary during source selection
           for competitive acquisitions, DSCP did not compare contractor proposals against
           one another. Instead, DSCP performed a price analysis on each proposal by
           comparing the commercial catalog price for individual NSNs with the proposed
           price to determine price reasonableness. In a price analysis dated May 9, 2001,
           DSCP states that AAR Mobility Systems is a sole-source provider for the NSNs
           in its proposal. Each of the four contractors was in fact a sole-source provider for
           the NSNs in their commercial catalogs because each contractor offered a unique
           product line. DSCP improperly used the multiple award process and did not
           achieve full-and-open competition, as FAR Part 6, “Contracting Requirements,”
           requires because they did not allow duplication of product lines. DSCP
           ultimately awarded about $176 million in sole-source contracts without obtaining
           from the senior procurement executive of the agency justification for other than
           full-and-open competition. The Under Secretary of Defense for Acquisition,
           Technology, and Logistics delegated in June 1991 the authority to approve
           justifications for other than full-and-open competition to the Defense Logistics
           Agency. Accordingly, DSCP should have obtained approval to award sole-source
           contracts from the Senior Procurement Executive of the Defense Logistics
           Agency as the Defense Logistics Agency Directive 6.304(a)(4)(A)(1)(90),
           “Approval of the Justification,” instructs:




                                                            19
           Justifications requiring approval by the Senior Procurement Executive
           . . . shall be forwarded to DLSC-PO [Defense Logistics Support
           Command-Procurement Office] by a letter of transmittal signed by the
           Commander of the activity requesting approval . . .

Issuing Sole-Source Delivery Orders. DSCP was unable to initiate competition
throughout the contract period of performance because similar products were not
identified during the initial award process. Although FAR Part 16, “Types of
Contracts,” does create a preference for multiple awards, DSCP improperly
created a sole-source situation. FAR 16.504(c)(ii)(A), “Multiple Award
Preference,” states:
           The contracting officer must determine whether multiple awards are
           appropriate as part of acquisition planning. The contracting officer
           must avoid situations in which awardees specialize exclusively in one
           or a few areas within the statement of work, thus creating the
           likelihood that orders in those areas will be awarded on a sole-source
           basis . . .

In addition, DSCP did not allow for a fair opportunity for each awardee when the
Army and the Air Force submitted requisitions that identified an NSN because
DSCP awarded delivery orders for the contract with that specific NSN.
FAR 16.505(b)(1), “Fair Opportunity,” requires that contracting officers
“. . . provide each awardee a fair opportunity to be considered for each order
exceeding $2,500 issued under multiple delivery-order contracts . . . ” AAR
Mobility Systems received $63.5 million, or 87 percent of the $73.4 million in
delivery orders issued between July 2001 and March 2003. DSCP was unable to
compete delivery orders from July 2, 2001, through January 15, 2002, because
only one contract existed. During that 6-month period, DSCP issued 920 sole-
source delivery orders totaling $24.3 million to AAR Mobility Systems. When
using multiple award procedures, DSCP should avoid creating sole-source
situations and restricting fair opportunity for awards.

MCSC Competitive Acquisition. MCSC successfully competed and awarded in
May 1999, a $68.5-million contract for one type of specialized shipping
container. MCSC awarded one contract to CMCI for containerization needs of
the Marine Corps before DSCP developed an acquisition plan for using multiple
awards in February 2001. In response to a Request for Proposal, MCSC received
eight proposals but determined that one proposal was nonresponsive. During the
source selection process, MCSC evaluated seven contract proposal amounts
ranging from $74.1 million to $121 million. MCSC determined that the proposal
from AAR Mobility Systems, who was the recipient of the greatest portion of
DSCP delivery orders for specialized shipping containers, was outside the
competitive range. AAR Mobility Systems submitted a proposal that was
$38.3 million higher than the proposal submitted by the MCSC award recipient,
CMCI— another DSCP award recipient. Wel-Fab, Incorporated, and Boh
Environmental, LLC, the remaining two DSCP contract award recipients, did not
submit proposals.

TACOM Competitive Acquisition. TACOM also successfully competed and
awarded in August 2001, a $10.4-million contract for one type of specialized


                                        20
    shipping container. TACOM awarded a single contract to CMCI after DSCP
    awarded a contract to AAR Mobility Systems but before DSCP awarded
    additional contracts to CMCI; Wel-Fab, Incorporated; and BOH Environmental,
    LLC. In response to a solicitation, TACOM received five proposals and
    determined that three of the five proposals were within the competitive range.
    TACOM evaluated three contract proposal amounts ranging from $11.1 million to
    $13.7 million during the source selection process. TACOM awarded the contract
    to CMCI, who was the only contractor that submitted proposals to both DSCP and
    TACOM. TACOM did not receive proposals from the other three contractors:
    AAR Mobility Systems (the recipient of the greatest portion of DSCP delivery
    orders); Wel-Fab, Incorporated; and Boh Environmental, LLC.

    DSCP Sole-Source Acquisitions. Unlike MCSC and TACOM, DSCP did not
    successfully achieve competition in either the initial awards or subsequent
    delivery orders for the four contracts awarded for specialized shipping containers
    and accessories. DSCP created sole-source situations during the initial award
    process and when issuing subsequent delivery orders. Because DSCP
    circumvented competition requirements, DSCP should obtain justification for
    other than full-and-open competition or modify the contracts to include ordering
    procedures that each awardee is given a fair opportunity to be considered for each
    order before exercising options for any of the multiple award contracts. DSCP
    must comply with both the FAR and the Defense Logistics Agency Directive
    requirements and obtain approval to award sole-source contracts without
    full-and-open competition. Furthermore, DSCP must obtain approval from the
    Senior Procurement Executive of the Defense Logistics Agency for proposed
    sole-source contracts that exceed $50 million. In addition, DSCP must comply
    with FAR requirements for avoiding the use of multiple awards in situations
    where specialization will lead to orders awarded on a sole-source basis and where
    fair opportunity cannot be provided for each awardee. DSCP should refrain from
    issuing multiple award contracts when the acquisition is planned to be awarded
    only to contractors with unique product lines.


Using Commercial Market Acceptance
    DSCP incorrectly used the availability of an item in the commercial market—
    commonly referred to as commercial market acceptance— as the criterion for
    evaluating whether items would meet the needs of both the Army and the Air
    Force. DSCP did not obtain properly developed requirements from the Army and
    the Air Force. To ensure that containerization needs were met in a cost-efficient
    manner, DSCP should have identified specific containerization needs of the Army
    and the Air Force similar to the processes of MCSC and TACOM. The
    identification process would have allowed DSCP to contract for specific
    containers instead of awarding multiple sole-source contracts for entire
    commercial catalogs.

    Commercial Market Acceptance. DSCP incorrectly designed the acquisition to
    use commerciality as the criterion for evaluating whether a container would meet
    containerization needs of the Army and the Air Force. FAR 11.103 (d), “Market
    Acceptance,” states, “commercial market acceptance shall not be used as a


                                        21
            criterion to evaluate whether an item meets the Government’s requirements.” The
            statement of work DSCP developed states:
                         All items will be commercial shipping and storage containers,
                         accessories and related items. The list includes items in federal stock
                         class 8145. All items are brand name specific or generic commercial
                         products, which are identified by the manufacturer’s commercial item
                         descriptions.    All items are to conform to the manufacturer’s
                         commercial specifications, quality conformance, quality certifications
                         and identification as defined by the item description for each item.

            DSCP should not exclusively use commercial market acceptance for determining
            whether a specialized shipping container meets the need of the Army and the Air
            Force.

            Stating Requirements. DSCP did not obtain container requirements from the
            Army or the Air Force nor did they work with requirements personnel to identify
            containerization needs of the Army and the Air Force. FAR 11.002(a)(2),
            “Policy,” states that agencies shall:
                         To the maximum extent practicable, ensure that acquisition officials—

                             (i) State requirements with respect to an acquisition of
                         supplies . . . in terms of—

                                   (A) Functions to be performed;

                                   (B) Performance required; or

                                   (C) Essential physical characteristics.

            In January 2001 (1 month before the acquisition was planned), the Under
            Secretary of Defense for Acquisition and Technology (renamed Acquisition,
            Technology, and Logistics) reemphasized the importance of developing
            requirements by issuing a memorandum stating, “. . . contracting officers and
            requirements personnel should work together to avoid sole-source situations.”
            DSCP did not include in either the acquisition plan or the solicitation any
            indication of how the containers would be used, to what conditions the containers
            would be exposed, any useful life expectations, or the existing requirements. For
            example, DSCP did not in any of the four contracts awarded for specialized
            shipping containers request chemical agent resistant coating5 as additional
            protection for specialized shipping containers. The Army identified chemical
            agent resistant coating in 1983 as the approved coating for all equipment in
            combat, combat support, and essential ground support equipment categories. In
            addition, the Army set October 1985 as the mandatory date that any new
            procurement would include chemical agent resistant coating. With such a
            requirement, the Army would be responsible for applying chemical agent resistant

5
    Chemical agent resistant coating is a polyurethane paint that provides superior durability, extends service
    life for containers, provides the container with superior resistance to chemical warfare agent penetration,
    and simplifies decontamination.



                                                        22
coating to all containers that were acquired through DSCP at an additional
expense. Given the many uses for containers, DSCP should have identified both
modes of transportation and storage conditions that would provide
containerization needs of the Army and the Air Force in a cost-efficient manner.

MCSC-Developed Requirements. MCSC successfully developed requirements
before awarding in May 1999, a $68.5 million contract for one type of specialized
shipping container. MCSC developed a Required Operational Capability
document, July 17, 1997 (revised), for a family of cargo containers. The
Required Operational Capability document details 38 characteristics that are
determined to be essential for containers and accessories. Examples of the
characteristics are:

   •   capable of intermodal transport and compatible with shipboard handling
       and storage;

   •   maximum gross weight of 10,000 pounds;

   •   lockable, reusable, and weatherproof;

   •   compatible with stowage and cargo handling configurations of both
       U.S. Navy amphibious ships and commercial ships; and

   •   capable of providing four-way forklift handling.

MCSC also included a statement of need in the Required Operational Capability
document recognizing the requirement for containers capable of storing and
transporting organizational property and consumable supplies. MCSC used the
Required Operational Capability document in conjunction with a Purchase
Description, May 7, 1998, for the Quadcon during source selection to ensure that
the containerization needs of the Marine Corps were met in a cost-efficient
manner.

TACOM Developed Requirements. TACOM successfully developed
requirements before awarding in August 2001, a $10.4 million contract for one
type of specialized shipping container. TACOM developed a Performance
Purchase Description, July 17, 2000, for the Tricon, which specified materials
(including chemical agent resistant coating), design, interface, and support and
ownership requirements. Those requirements included, but were not limited to,
corrosion control, a restraint system, weight, ratings, and dimensions, and exterior
and interior markings. TACOM used the Performance Purchase Description
during the source selection process to ensure that the containerization needs of the
Army were met in a cost-efficient manner.

DSCP Used Commercial Market Acceptance. Unlike MCSC and TACOM,
DSCP did not identify the containerization needs of the Army and the Air Force
to develop requirements for specialized shipping containers. Instead, DSCP used
commercial market acceptance exclusively and issued sole-source, multiple award
contracts for each contractor’s commercial catalog. DSCP is required to comply
with FAR requirements and avoid using commercial market acceptance as the
criterion for evaluating whether an item meets the Government’s requirements.


                                    23
    In the future, DSCP should obtain properly developed requirements for containers
    from the users or work with requirements personnel before awarding contracts to
    ensure that the containerization needs of the Army and the Air Force are met in
    the most cost-efficient manner.


Conclusion
    DSCP issued four multiple award contracts for specialized shipping containers
    and accessories that circumvented competition and item evaluation requirements.
    DSCP improperly used multiple award procedures to issue without competition
    four sole-source contracts totaling about $176 million. In addition, DSCP
    incorrectly used commercial market acceptance as the criterion for evaluating
    whether an item met the Government’s requirements. As a result, DSCP awarded
    between July 2001 and March 2003, about $73.4 million in sole-source delivery
    orders without obtaining approval from the Senior Procurement Executive of the
    Defense Logistics Agency. In addition, DSCP did not offer any assurance that the
    containerization needs of the Army and the Air Force were met or that DoD funds
    were spent in the most cost-efficient manner. Unlike DSCP, MCSC and TACOM
    successfully identified requirements and created competition when awarding
    contracts for specialized shipping containers. Therefore, MCSC and TACOM
    awarded contracts with assurance that the containerization needs of the Marine
    Corps and the Army were met and that DoD funds were spent in the most cost-
    efficient manner.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments on urgent and
    compelling demand for containers, we revised draft Recommendation B.1., while
    sustaining option provisions, to ensure that the DSCP follows competitive
    procedures.

    B. We recommend that the Commander, Defense Supply Center
    Philadelphia:

                1. Emphasize to contracting officers the need to obtain
    justification for other than full-and-open competition or modify the contracts
    to include ordering procedures that each awardee is given a fair opportunity
    to be considered for each order before exercising options for any of the
    multiple award contracts.

    Management Comments. The Deputy Director for Logistics Operations
    partially concurred stating that DSCP took action to eliminate a noncompetitive
    environment by awarding three additional multiple award schedule contracts
    between 6 and 18 months after awarding one sole-source contract for unit-owned
    containers. The deputy director also stated that DSCP would exercise the options
    in the contracts because of the significant increase in demand for containers


                                       24
following September 11 and not exercising the options would pose significant
risk of disrupting the supply stream of these containers.

Audit Response. The DLA comments are partially responsive. Although DSCP
stated that it awarded additional multiple award schedule contracts to eliminate
the noncompetitive environment for acquiring containers, none of the contracts
was awarded using competitive procedures. In conducting procurements,
agencies shall obtain full-and-open competition through the use of competitive
procedures in accordance with section 2304, title 10, United States Code, (10
U.S.C. 2304) and FAR Part 6, “Competition Requirements.” 10 U.S.C. 2302 (2)
states:
           (2) The term “competitive procedures” means, procedures under which
           the head of an agency enters into a contract pursuant to full and open
           competition. Such term also includes –

               (C) the procedures established by the Administrator of General
               Services for the multiple award schedule program of the General
               Services Administration if –

                   (i) participation in the program has been open to all
                   responsible sources; and

                   (ii) orders and contracts under such program result in the
                   lowest overall cost alternative to meet the needs of the United
                   States.

Because each of the four contractors was awarded a sole-source contract for their
unique product line, and the Administrator of General Services Administration
did not establish these multiple award schedule contracts under FAR Part 38,
“Federal Supply Schedule Program,” we disagree that DSCP eliminated the
noncompetitive environment for acquiring containers. In addition, DSCP did not
establish a requirement in its multiple award schedule contracts to compete
delivery orders among the awardees. FAR 16.505 (b), “Orders under Multiple
Award Contracts,” states that the contracting officer must develop ordering
procedures to ensure that each awardee is given a fair opportunity to be
considered for each order. These procedures must also be included in the
solicitation and the contract. If DSCP plans to exercise the option in the contracts
under unusual and compelling urgency, FAR 6.3, “Other Than Full and Open
Competition,” provides provisions for this and the report did not take exception to
this requirement.

The intent of our recommendation was to ensure that DSCP successfully
competes and awards container contracts using competitive procedures for
various types of specialized shipping containers. We revised our recommendation
to clarify our point that the DSCP contracting officer needs to award future
container contracts using competitive procedures in accordance with 10 U.S.C.
and FAR Part 6. We request that DLA provide comments on the revised
recommendation.




                                        25
            2. Establish controls that ensure contracting officers obtain
justifications from the Senior Procurement Executive of the Defense
Logistics Agency for other than full-and-open competition for proposed sole-
source contracts that exceed $50 million in accordance with Defense Logistics
Agency Directive 6.304(a)(4)(A)(1)(90), “Approval of the Justification.”

Management Comments. The Deputy Director for Logistics Operations
concurred stating that DLA has revised and implemented the Integrated
Acquisition Review Board process in Defense Logistics Acquisition
Directive 7.104-90 to ensure proper review and approval of contracting initiatives
and application of internal controls over the procurement process. DLA also
plans to establish similar Boards at its Inventory Control Points. In addition, the
Agency is clarifying its policy and procedures for multiple award schedule
contracts to field activities.

          3. Establish procedures that ensure contracting officers comply
with Federal Acquisition Regulation 16.504(c)(ii)(A), “Multiple Award
Preference,” which requires that contracting officers avoid using multiple
award contracts in sole-source situations.

Management Comments. The Deputy Director for Logistics Operations
concurred. DLA agreed that, under FAR 16.5, multiple award contracts should
not be sole source. DLA stated that FAR 16.5 should not have been cited in this
acquisition. DSCP intended to continue to use multiple award schedule contracts,
which are not directly governed by FAR 16.5. DLA is revising its guidance and
procedures to reemphasize proper use of multiple award schedule contracts,
which will be completed within the next 60 days.

          4. Direct that contracting officers discontinue using commercial
market acceptance as the criterion for evaluating whether a specialized
shipping container will meet the containerization needs of the Army and the
Air Force as Federal Acquisition Regulation 11.103 (d), “Market
Acceptance,” requires and obtain requirements from the Army and the Air
Force.

Management Comments. The Deputy Director for Logistics Operations
concurred in part stating that DSCP did not only use commercial market
acceptance established in FAR 11.103, but researched Army and Air Force
requirements as part of the acquisition planning process. DSCP research
determined that the Army and the Air Force required many container types and
the containers in question were satisfactorily supplied to the Government under
both current and previous contracts. The deputy director also stated that
10 U.S.C. 2377 (b), “Preference for Acquisition of Commercial Item,” requires
that procurement officials acquire commercial items to the maximum extent
practical. The comments indicated that traditional procurement processes that
acquire a single container type in a long-term arrangement deny the military
timely access to product improvements and enhancements driven by commercial
market forces. Although the MCSC and the TACOM awarded a single container
type of each of their contracts, these types of contract arrangements do not fully
satisfy the overall requirements of the customers for containers.



                                    26
Audit Response. The DLA comments were only partially responsive. The
DSCP did not adequately perform market research of specialized shipping
containers for Army and Air Force containerization programs. For example,
while performing research, DSCP failed to advise Air Force Bare Base officials
that their requirement for a $10,000 ISU container could be better satisfied by a
$2,000-$4,000 Quadcon or Tricon. Also, DSCP research efforts failed to
incorporate in its container solicitation the 1983 Army requirement for a chemical
agent resistant coating to be used on combat support containers.

We do not agree with the comment that MCSC and TACOM contract
arrangements do not fully satisfy their overall requirements. TACOM currently is
in the process of awarding a contract to purchase about 45,000 Quadcons and
Tricons to satisfy Army requirements on a single contract while using competitive
procedures in accordance with FAR Part 6. This report showed that both MCSC
and TACOM have successfully used a competitive source selection process and
that this contract method was more effective and efficient than the DLA contract
method. We request that DLA reconsider its position and provide additional
comments on the recommendation.




                                    27
Appendix A. Scope and Methodology
   We visited individuals at AAR Mobility Systems; SFA, Incorporated; and CMCI.
   In addition, we visited or contacted 36 organizations in DoD, including the Office
   of the Secretary of Defense, the Army, the Navy, the Air Force, the Marine Corps,
   and other DoD organizations that procure, manage, or use unit-owned containers.

   We interviewed DoD personnel to obtain an understanding of the management
   controls for unit-owned containers. We reviewed property accountability records
   and performed physical inventories for 18 Army units (company, group, battalion,
   or brigade), and 35 Air Force units (flight, squadron, or group). We also
   reviewed manufacturer descriptions for Quadcons, Tricons, and ISU containers.
   Defense Supply Center Philadelphia data showed that for the 18-month period
   beginning October 2001 through March 2003, the Army and the Air Force
   requisitioned from DSCP approximately $52.1 million of unit-owned containers
   and accessories, which purchased the containers from AAR Mobility Systems and
   CMCI. Of that $52.1 million, approximately $49.6 million (approximately
   95 percent) was for requisitions of ISU containers and accessories.

   We reviewed four contracts with a total estimated value of approximately
   $176 million that DSCP awarded from July 2001 through September 2002, using
   multiple award procedures to AAR Mobility Systems; CMCI; Wel-Fab,
   Incorporated; and Boh Environmental, LLC. The Haystack Online for Windows
   database showed approximately $73.4 million in delivery orders between
   July 6, 2001, and March 31, 2003, on the four contracts. Delivery orders issued
   sole source to AAR Mobility Systems were approximately $63.5 million
   (approximately 87 percent) of the $73.4 million. We specifically reviewed the
   acquisition plan, solicitation, and other documents within the contract files of the
   four contracts. In addition, we reviewed the contract files of the Marine Corps as
   well as the contracts TACOM awarded to CMCI, M67854-99-D-3047 and
   DAAE07-01-D-T049, respectively. The document review included, but was not
   limited to, acquisition plans, a procurement request and solicitation, purchase
   descriptions, and source selection plans.

   We performed this audit from July 2002 through December 2003 in accordance
   with generally accepted government auditing standards. Our scope was limited in
   that we did not review the Navy’s processes for acquisition or management of
   unit-owned containers because the Naval Audit Service was conducting a review
   on the Navy container program.

   Use of Computer-Processed Data. We used computer-processed data from the
   Haystack Online for Windows database to determine the dollar value of DSCP
   delivery orders issued to AAR Mobility Systems (Contract SP0500-01-D-0155);
   CMCI (Contract SP0500-02-D-0016); Wel-Fab, Incorporated (Contract
   SP0500-02-D-0036); and Boh Environmental, LLC (Contract SP0500-02-D-
   0116) for FY 2001, FY 2002, and the first half of FY 2003. Although we did not
   perform a formal reliability assessment of the computer-processed data from the
   Haystack Online for Windows database, we determined that the award dates,
   quantity, and dollar values in the computer-processed data generally coincided
   with information we confirmed with DSCP and units within the Army and the Air


                                        28
    Force. We did not find errors that would preclude use of the computer-processed
    data to meet the audit objectives or that would change the conclusions in this
    report.

    We also used computer-processed data DSCP provided to determine the quantity
    and dollar value of containers the Army and the Air Force requisitioned through
    DSCP contracts for FY 2002 and the first half of FY 2003. Although we did not
    perform a formal reliability assessment of the computer-processed data DSCP
    provided, we determined that the quantities and amounts in the computer-
    processed data generally agreed with the information found in Haystacks Online
    for Windows. In addition, units within the Army and the Air Force confirmed
    that the information generally agreed with requisitions they had placed. We did
    not find errors that would preclude use of the computer-processed data to meet the
    audit objectives or that would change the conclusions in the report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD high-risk areas identified as, “Improve processes and controls to reduce
    contract risk” and “Improve quality of logistics support.”


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    Army and Air Force management controls over the acquisition and management
    of unit-owned containers. In addition, we reviewed the adequacy of DSCP
    management controls over obtaining approvals of justifications for other than
    full-and-open competition on sole-source acquisitions. Management did not have
    self-evaluations applicable to these controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Army and the Air Force as defined by DoD
    Instruction 5010.40. Army and Air Force management controls for acquisition
    and management of unit-owned containers were not effective or efficient.
    Recommendations A.1. and A.2., if implemented, will correct the identified
    weaknesses and could result in $137.4 million of cost avoidance. We also
    identified material management control weaknesses for DSCP as defined by DoD
    Instruction 5010.40. DSCP management controls for obtaining approvals of
    justifications for other than full-and-open competition in sole-source acquisitions
    of specialized shipping containers were not adequate for ensuring compliance
    with the Defense Logistics Agency Directive. Recommendation B.2., if
    implemented, will correct the identified weakness and ensure that DSCP complies
    with FAR requirements on sole-source acquisitions that exceed $50 million.



                                        29
    Adequacy of Management’s Self-Evaluation. We did not assess the adequacy
    of management’s self-evaluation because Army, Air Force, and DSCP officials
    did not identify the acquisition and management of unit-owned containers as an
    assessable unit and, therefore, did not identify or report the material management
    control weaknesses identified by the audit.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense (IG
    DoD) has issued one report discussing the commercial containers and three
    reports discussing multiple award contracts. Unrestricted IG DoD reports can be
    accessed over the Internet at http://www.dodig.osd.mil/audits/reports.

IG DoD
    IG DoD Report No. D-2004-15, “Contracts for Professional, Administrative, and
    Management Support Services,” October 30, 2003

    IG DoD Report No. D-2001-189, “Multiple Award Contracts for Services,”
    September 30, 2001

    IG DoD Report No. D-2001-149, “Coordinating and Tracking of Commercial
    Containers in Korea,” June 22, 2001

    IG DoD Report No. 99-116, “DoD Use of Multiple Award Task Order
    Contracts,” April 2, 1999




                                        30
Appendix B. Comparison of Unit-Owned
            Containers
   Army and Air Force units commonly used three types unit-owned containers. Of
   the unit-owned containers the Army and Air Force owned, the ISU 90 is the most
   widely used container. Army infantry units generally use Quadcons and Army
   support units generally use Tricons for systems such as water and petroleum. As
   shown in the chart below, the three types of unit-owned containers have similar
   airlift capabilities but vary in size and cost. In addition, the sea and rail
   capabilities of the unit-owned containers differ.

                      Comparison of Unit-Owned Containers
                          Quadcon            Tricon            ISU 90
    Characteristics       Container         Container         Container

    Length (inches)           96                96               108

    Width (inches)           57.5              77.5               88

    Height (inches)           82                96                90

    Cubic Feet               215               346               399
    Cargo Capacity
    (pounds)                9,436             14,900            10,000

    Airlift Mode             Yes               Yes               Yes
    Sea
    Certification            Yes               Yes                No
    Rail
    Certification            Yes               Yes                No
    Helicopter
    Slingable                Yes               Yes               Yes
    Approximate
    Cost                    $1,605            $3,000            $9,140




                                      31
Appendix C. Potential Cost Avoidance
Based on the acquisition and management practices of the Army and the Air Force from
October 1, 2001, through March 31, 2003, if the Army and the Air Force purchased
Quadcons instead of accessorized ISU containers to satisfy unit-owned container
requirements, we calculate cost avoidance of about $137.4 million, or $87.8 million and
$49.6 million, respectively, over the next 6 years.



                             Calculation of Future Accessorized
                                       ISU Purchases
                                                      Average
                           Quantities                Unit Cost1             Calculation
                   18-Month         6-Year                          18-Month            6-Year
     Army            2,788           11,152           $11,114      $30,985,677      $123,942,708
     Air Force       1,920            7,680             9,705       18,633,049        74,532,196
      Total          4,708           18,832                        $49,618,726      $198,474,904




                 Calculation of Future Quadcon Purchases
                          Quantities2                       Calculations3
                   18-Month         6-Year            18-Month         6-Year
    Army             5,150          20,600           $ 9,038,250    $36,153,000
    Air Force        3,547          14,187             6,224,985      24,898,185
     Total           8,697          34,787           $15,263,235    $61,051,185




                                           Calculation of Cost Avoidance
                                ISU                               Quadcon                    Cost Avoidance
                   18-Month              6-Year           18-Month        6-Year        18-Month         6-Year
    Army          $30,985,677         $123,942,708       $ 9,038,250   $36,153,000     $21,947,427    $87,789,708
    Air Force      18,633,049           74,532,196         6,224,985    24,898,185      12,408,064      49,634,011
     Total        $49,618,726         $198,474,904       $15,263,235   $61,051,185     $34,355,491    $137,423,719




1
  The average unit cost of an accessorized ISU container for the Army and the Air Force was found by
dividing the total cost spent by the Army and the Air Force on ISU containers and accessories by the
quantity of containers each bought.
2
    The internal volume of one ISU container is 399 cubic feet whereas the internal volume of one Quadcon is
     216 cubic feet. Therefore, quantities of Quadcon purchases were calculated by multiplying ISU purchase
     quantities by 399 and dividing the result by 216.
3
    The current Marine Corps contract price for Quadcons purchased in large volumes is $1,755.




                                                            32
Appendix D. Report Distribution

  Office of the Secretary of Defense
  Under Secretary of Defense for Acquisition, Technology, and Logistics
    Assistant Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
      (Transportation Policy)
    Director, Acquisition Initiatives
    Director, Defense Procurement and Acquisition Policy
  Under Secretary of Defense (Comptroller)/Chief Financial Officer
    Deputy Chief Financial Officer
    Deputy Comptroller (Program/Budget)

  Department of the Army
  Assistant Secretary of the Army (Financial Management and Comptroller)
  Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Deputy Chief of Staff for Logistics
  Auditor General, Department of the Army
  Commander, Army Forces Command
    Commander, Fort Bragg
    Commander, Fort Campbell
  Commander, Army Tank-automotive and Armaments Command

  Department of the Navy
  Naval Inspector General
  Inspector General of the Marine Corps
  Auditor General, Department of the Navy
  Commander, Marine Corps Systems Command

  Department of the Air Force
  Assistant Secretary of the Air Force (Financial Management and Comptroller)
  Auditor General, Department of the Air Force
  Deputy Chief of Staff for Installation and Logistics
  Commander, Air Combat Command
    Commander, Davis-Monthan Air Force Base
    Commander, Holloman Air Force Base
    Commander, Nellis Air Force Base
  Commander, Air Force Materiel Command
    Commander, Robins Air Force Base




                                            33
Unified Commands
Commander, U.S. Transportation Command
   Commander, Air Mobility Command
   Commander, Surface Deployment and Distribution Command
Commander, U.S. Special Operations Command
   Commander, U.S. Army Special Operations Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center Philadelphia
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        34
Department of the Army Comments




                    35
36
37
Department of the Air Force Comments




                     38
     Final Report
      Reference




     Revised
     Pages i, 4,
     10, 12, and
     14




     Revised
     Pages 10,
     and 15




39
40
Defense Logistics Agency Comments




                     41
Final Report
 Reference




Revised
Pages ii, 21,
23, and 24




                42
43
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.
David K. Steensma
Deborah L. Culp
Ronald W. Hodges
Pauletta P. Battle
Joseph M. Kaseler
Kandy T. Adams
Nicole M. Ellis
Miwon Kim
Angela M. Kendera
Theresa Tameris
